              There Were No Administrative or Civil Actions
                 With Respect to Violations of Fair Tax
               Collection Practices in Calendar Year 2004


                                    March 2005

                       Reference Number: 2005-10-051




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                     March 15, 2005


      MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT



      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - There Were No Administrative or Civil
                                    Actions With Respect to Violations of Fair Tax Collection
                                    Practices in Calendar Year 2004 (Audit # 200410040)


      This report presents the results of our review of violations of fair tax collection practices.
      The overall objective of this review was to obtain information on any Internal Revenue
      Service (IRS) administrative or civil actions resulting from Fair Tax Collection Practices1
      violations by IRS employees. Section (§) 1102 (d)(1)(G) of the IRS Restructuring and
      Reform Act of 19982 requires the Treasury Inspector General for Tax Administration to
      include in one of its semiannual reports to the Congress information regarding any
      administrative or civil actions related to the violations of the fair debt collection
      provisions of 26 U.S.C. § 6304.
      In summary, our review of the 32 cases closed during the period January 1 through
      December 31, 2004, that were coded as potential Fair Debt Collection Practices Act3
      violations did not identify any administrative or civil actions with respect to violations of
      Fair Tax Collection Practices. Further, there were no civil actions that resulted in the
      IRS paying monetary settlements to taxpayers because of a Fair Tax Collection
      Practices violation.




      1
        26 U.S.C. § 6304 (2004).
      2
        Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
      16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
      3
        15 U.S.C. §§ 1601 note, 1692-1692o (2000). The IRS has traditionally referred to the Fair Tax Collection
      Practices violations under 26 U.S.C. § 6304 as “Fair Debt Collection Practices Act” violations.
                                           2

Management’s Response: IRS management agreed with the findings in our draft audit
report. Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
findings. Please contact me at (202) 622-6510 if you have questions or Daniel R.
Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.
                 There Were No Administrative or Civil Actions With Respect to
                Violations of Fair Tax Collection Practices in Calendar Year 2004




                                              Table of Contents


Background ................................................................................................. Page 1
There Were No Administrative Actions With Respect to
Violations of Fair Tax Collection Practices .................................................. Page 2
There Were No Monetary Settlements to Taxpayers With Respect
to Fair Tax Collection Practices Civil Actions .............................................. Page 3
Appendix I – Detailed Objective, Scope, and Methodology......................... Page 4
Appendix II – Major Contributors to This Report ......................................... Page 5
Appendix III – Report Distribution List ......................................................... Page 6
Appendix IV – Fair Tax Collection Practices Provisions .............................. Page 7
Appendix V – Management’s Response to the Draft Report ....................... Page 8
              There Were No Administrative or Civil Actions With Respect to
             Violations of Fair Tax Collection Practices in Calendar Year 2004

                                   Section (§) 1102 (d)(1)(G) of the Internal Revenue Service
Background
                                   (IRS) Restructuring and Reform Act of 1998 (RRA 98)1
                                   requires the Treasury Inspector General for Tax
                                   Administration (TIGTA) to include in one of its semiannual
                                   reports to the Congress information regarding any
                                   administrative or civil actions related to violations of the fair
                                   debt collection provisions of 26 U.S.C. § 6304, Fair Tax
                                   Collection Practices.2 The IRS has traditionally referred to
                                   the 26 U.S.C. § 6304 violations as “Fair Debt Collection
                                   Practices Act” (FDCPA)3 violations. The TIGTA
                                   semiannual report must provide a summary of such actions
                                   and include any judgments or awards granted.
                                   The law itself does not provide an explanation of what is
                                   meant by “administrative actions.” We used the IRS’
                                   definition when determining the number of FDCPA
                                   violations to be reported under RRA 98 § 1102 (d)(1)(G).
                                   The IRS’ definition of administrative actions includes
                                   disciplinary actions ranging from admonishment through
                                   removal. Lesser actions, such as oral or written counseling,
                                   are not considered administrative actions.
                                   As originally enacted, the FDCPA included provisions that
                                   restricted various collection abuses and harassment in the
                                   private sector. These restrictions did not apply to Federal
                                   Government practices. However, the Congress believed it
                                   was appropriate to require the IRS to comply with
                                   applicable portions of the FDCPA and to be at least as
                                   considerate to taxpayers as private creditors are required to
                                   be with their customers (see Appendix IV for a detailed
                                   description of the FDCPA provisions). As such,
                                   RRA 98 § 3466(a) required the IRS to follow Fair Tax
                                   Collection Practices in line with the FDCPA.
                                   Taxpayer complaints about IRS employees’ conduct can be
                                   reported to several IRS functions for tracking on IRS
                                   management information systems. If a taxpayer files a civil
                                   action or if IRS management determines that the taxpayer’s
                                   rights related to Fair Tax Collection Practices were

                                   1
                                     Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                   sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                                   23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                   2
                                     26 U.S.C. § 6304 (2004).
                                   3
                                     15 U.S.C. §§ 1601 note, 1692-1692o (2000).
                                                                                                   Page 1
                There Were No Administrative or Civil Actions With Respect to
               Violations of Fair Tax Collection Practices in Calendar Year 2004

                                     potentially violated, the complaint could be referred and
                                     then tracked on one or both of the following IRS systems:
                                     •   Office of Workforce Relations’ Automated Labor and
                                         Employee Relations Tracking System (ALERTS), which
                                         generally tracks employee behavior that may warrant
                                         IRS management administrative actions.
                                     •   Office of Chief Counsel’s Counsel Automated System
                                         Environment (CASE), which is an inventory control
                                         system that tracks items such as taxpayer civil actions or
                                         bankruptcies.
                                     The IRS began tracking FDCPA codes on the ALERTS in
                                     March 1999 and on the CASE in June 1999.
                                     For the Calendar Year 2004 review, we analyzed closed
                                     cases from the ALERTS and the CASE to identify
                                     violations of Fair Tax Collection Practices. However, we
                                     could not ensure the cases recorded on the ALERTS and the
                                     CASE constitute all Fair Tax Collection Practices
                                     violations. Furthermore, the scope of our audit was not
                                     intended to determine the accuracy or consistency of
                                     disciplinary actions taken against employees for Fair Tax
                                     Collection Practices violations that were not reported to the
                                     Office of Workforce Relations.
                                     This review was performed at the Chief Human Capital and
                                     Chief Counsel Offices in the IRS National Headquarters in
                                     Washington, D.C., during the period October through
                                     December 2004. The audit was conducted in accordance
                                     with Government Auditing Standards. Detailed information
                                     on our audit objective, scope, and methodology is presented
                                     in Appendix I. Major contributors to the report are listed in
                                     Appendix II.
                                     There were 32 cases coded as FDCPA complaints closed on
There Were No Administrative
                                     the ALERTS during the period January 1 through
Actions With Respect to
                                     December 31, 2004. However, only 18 of the cases were
Violations of Fair Tax Collection
                                     related to collection practices—the other cases were either
Practices
                                     miscoded (13 cases) or duplicate (1 case). None of the
                                     18 cases involved administrative actions with respect to
                                     violations of Fair Tax Collection Practices. The disposition
                                     of the 18 cases included admonishment for failure to follow
                                     established guidelines, written counseling, retirement or
                                     other separation from the IRS, withdrawal of the allegation,
                                                                                            Page 2
                There Were No Administrative or Civil Actions With Respect to
               Violations of Fair Tax Collection Practices in Calendar Year 2004

                                     clearance of any wrongdoing, and closure without further
                                     action.
                                     Oral or written counseling is not considered an
                                     administrative action under the IRS’ definition. Since the
                                     IRS does not routinely track all informal oral counseling or
                                     minor actions against its employees, it is not possible to
                                     determine how often, and for what reasons, informal oral
                                     counseling or other minor disciplinary actions occurred.
                                     Section 7433 of the Internal Revenue Code (I.R.C.) provides
There Were No Monetary
                                     that a taxpayer may bring a civil action for damages against
Settlements to Taxpayers With
                                     the Federal Government if an officer or employee of the IRS
Respect to Fair Tax Collection
                                     recklessly or intentionally, or by reason of negligence,
Practices Civil Actions
                                     disregards any provision of the I.R.C., or related regulation,
                                     in connection with the collection of Federal tax.
                                     There were no cases closed on the CASE for which the IRS
                                     paid damages to taxpayers resulting from a civil action filed
                                     due to a Fair Tax Collection Practices violation.




                                                                                            Page 3
                There Were No Administrative or Civil Actions With Respect to
               Violations of Fair Tax Collection Practices in Calendar Year 2004

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The objective of this review was to obtain information on any Internal Revenue Service (IRS)
administrative or civil actions resulting from Fair Tax Collection Practices1 violations by IRS
employees. Specifically, we:
I.      Determined the number of Fair Tax Collection Practices violations resulting in
        administrative actions.
        A. Obtained a computer extract from the Automated Labor and Employee Relations
           Tracking System (ALERTS)2 of the 32 cases that were opened after July 22, 1998,
           and closed during the period January 1 through December 31, 2004, as Fair Debt
           Collection Practices Act (FDCPA)3 violations.
        B. Determined whether any of the FDCPA-coded cases resulted in administrative
           actions.
II.     Determined whether there were Fair Tax Collection Practices violations which resulted in
        civil actions (judgments and awards granted) by requesting a computer extract from the
        Counsel Automated System Environment (CASE)4 of the Subcategory 6304 (established
        to track FDCPA violations) cases opened after July 22, 1998, and closed during the
        period January 1 through December 31, 2004. The Office of Chief Counsel identified no
        cases.




1
  26 U.S.C. § 6304 (2004).
2
  The Office of Workforce Relations’ ALERTS generally tracks employee behavior that may warrant IRS
management administrative actions.
3
  15 U.S.C. §§ 1601 note, 1692-1692o (2000).
4
  The CASE is an Office of Chief Counsel inventory control system that tracks items such as taxpayer civil actions
or bankruptcies.
                                                                                                           Page 4
             There Were No Administrative or Civil Actions With Respect to
            Violations of Fair Tax Collection Practices in Calendar Year 2004

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Kevin P. Riley, Audit Manager
Charles O. Ekunwe, Lead Auditor
Frank I. Maletta, Auditor




                                                                                      Page 5
             There Were No Administrative or Civil Actions With Respect to
            Violations of Fair Tax Collection Practices in Calendar Year 2004

                                                                            Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief Counsel CC
Chief Human Capital Officer OS:HC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons: Chief Counsel CC
                 Chief Human Capital Officer OS:HC




                                                                                 Page 6
                There Were No Administrative or Civil Actions With Respect to
               Violations of Fair Tax Collection Practices in Calendar Year 2004

                                                                                                    Appendix IV


                              Fair Tax Collection Practices Provisions

To ensure the Internal Revenue Service (IRS) and private debt collectors follow similar rules, the
IRS Restructuring and Reform Act of 19981 requires the IRS to comply with certain provisions
of the Fair Debt Collection Practices Act.2 These provisions are referred to as Fair Tax
Collection Practices3 procedures. Specifically, the IRS may not communicate with taxpayers in
connection with the collection of any unpaid tax:
•   At unusual or inconvenient times.
•   If the IRS knows that the taxpayer has obtained representation from a person authorized to
    practice before the IRS, and the IRS knows or can easily obtain the representative’s name
    and address.
•   At the taxpayer’s place of employment, if the IRS knows or has reason to know that such
    communication is prohibited.
Further, the IRS may not harass, oppress, or abuse any person in connection with any tax
collection activity or engage in any activity that would naturally lead to harassment, oppression,
or abuse. Such conduct specifically includes, but is not limited to, the:
•   Use or threat of violence or harm.
•   Use of obscene or profane language.
•   Causing a telephone to ring continuously with harassing intent.
•   Placement of telephone calls without meaningful disclosure of the caller’s identity.




1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  15 U.S.C. §§ 1601 note, 1692-1692o (2000).
3
  26 U.S.C. § 6304 (2004).
                                                                                                              Page 7
 There Were No Administrative or Civil Actions With Respect to
Violations of Fair Tax Collection Practices in Calendar Year 2004

                                                                    Appendix V


        Management’s Response to the Draft Report




                                                                        Page 8
